IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER 2019 TERM
NO. ______
TERRENCE MARSH, Petitioner,
v.
UNITED STATES OF AMERICA, Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Terrence Marsh asks leave to file the attached Petition for Writ of Certiorari
without prepayment of costs, and to proceed in forma pauperis. Pursuant to the provision of the
Criminal Justice Act, Petitioner was previously granted leave to proceed in both the United States
District Court for the Northern District of West Virginia and the United States Court of Appeals
for the Fourth Circuit on this case.
TERRENCE MARSH
By Counsel

s/Brian J. Kornbrath
______________________________
Brian J. Kornbrath
Federal Public Defender
Counsel for Terrence Marsh

